No. 20-413

3n 215be

fouprente Court of the atutteb btateo
•
JOZLYN THOMAS,
Petitioner,
V.
JAMES SCOTT BLEVINS,
Respondent.
•
On Petition For A Writ Of Certiorari
To The Court Of Appeal Of California,
Fifth Appellate District
•
BRIEF IN OPPOSITION TO PETITION
FOR A WRIT OF CERTIORARI
•
JAMES SCOTT BLEVINS

901 Opal Lane
Ripon, CA 95366
(209) 993-6095

RECEIVED
NOV - 4 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

1

TABLE OF CONTENTS
Page
TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii

BRIEF IN OPPOSITION

1

INTRODUCTION

1

FACTUAL BACKGROUND

1

ARGUMENT

5

1. PETITIONER'S ARGUMENT RESTS ENTIRELY WITH HER DISAGREEMENT
WITH THE 5TH DCA'S ANALYSIS AND
INTERPRETATION OF CALIFORNIA
CASE LAW, NOT THE UNITED STATES
5
CONSTITUTION
8
CONCLUSION
APPENDIX
Exhibit A

App. 1

Exhibit B

App. 6

Exhibit C

App. 14

11

TABLE OF AUTHORITIES
Page
CASES
County of San Diego v. Gorham (2010) 186
Ca1.App.4th 1215
1, 6, 7
Munoz v. Lopez (1969) 275 Ca1.App.2d 178

7

Smith v. Jones (1917) 174 Cal. 513

7

Trackman v. Kenney, 187 Ca1.App.4th 175

7

Washko v. Stewart (1941) 44 Cal.App.2d 311

7

CONSTITUTIONAL PROVISIONS
U.S. Const. amend. V

1, 5

U.S. Const. amend. XIV

1, 5

1
BRIEF IN OPPOSITION
INTRODUCTION
Petitioner characterizes this matter as a dispute
relating to the Fifth Amendment and Fourteenth
Amendment to the United States Constitution. Specifically, the question presented is "Whether the Fifth
and Fourteenth Amendments to the United States
Constitution serves to void the Order of the trial
court. . . ." However, the content of the brief submitted
by Petitioner is entirely untethered to the very question
Petitioner presents. Instead, Petitioner's argument
exclusively revolves around Petitioner's disagreement
with the California Fifth District Court of Appeals
("CA5th DCA") interpretation of a California case —
County of San Diego v. Gorham (2010) 186 Cal.App.4th
1215.
♦

FACTUAL BACKGROUND
In 2009, Respondent, in his capacity as Trustee of
the Giles Revocable Trust (the "Trust"), filed a petition
with the trial court to approve: (1) the Trust accounting; (2) an agreement between the Trustee and one of
the beneficiaries Dawn Morin; and (3) a plan of distribution for the Trust assets. This petition was approved
by the court in 2009 (the "2009 Order").
On or about May 18, 2009 (less than two weeks
after the 2009 Order was entered), Respondent learned
from his then wife Deena Blevins that Petitioner was
living with and being cared for by her legal guardians

2
Daniel and Mary Thomas in Punta Gorda, Florida.
Prior to learning of the Thomas' involvement, all correspondence and court filings for Petitioner were sent
to addresses that Respondent reasonably understood
were accurate as they were provided to Respondent
from Petitioner's father, Joseph Giles, and Respondent's mother Bobette Giles prior to her death. However,
once Respondent learned that Petitioner was living
with and being cared for by Mr. and Mrs. Thomas, Respondent immediately caused all communications, all
court filings, and all Trust distributions to be sent to
Petitioner at the address provided to him by Mr. and
Mrs. Thomas. Indeed, since 2009 Respondent has had
countless discussions with Dan Thomas regarding all
facets of the Trust and distribution of Trust assets.
Distribution of all Trust assets was completed in
2011 and the final Trust tax return was filed that year
as well. From and after 2011, the various beneficiaries
of the Trust, fourteen (14) total including Petitioner,
continued to own various pieces of real estate together
as a result of the Trust distribution; and they continued to own an interest in at least one general partnership. Setting aside the 2009 Order will effectively
create an unprecedented mechanism to reopen a completed trust administration and unwind the past decade of spending, investing, selling, devising, donating,
etc. the distributed Trust corpus by each of these fourteen (14) beneficiaries. It will be nothing short of cataclysmic, and quite frankly, impossible to unwind this
history of unique transactions.

3
It is undisputed that all documents relating to the
Trust were sent to Petitioner at the address provided
to Respondent by Petitioner's guardians from and after
May 2009. It is also undisputed that at least three separate documents were signed by and/or received by Petitioner's legal guardians in 2011 which expressly
identify the 2009 Order Petitioner seeks to set aside,
now a decade later.
The clear undisputed facts are that Petitioner was
made aware of the 2009 Order in a release signed by
Petitioner's guardians and in at least the following
two letters sent to and received by Petitioner in 2011:
1.

Letter dated February 17, 2011, to Petitioner. On February 17, 2011, the undersigned's law firm sent a letter to Petitioner
that included a very detailed and thorough recap of the Dawn Morin case and 2009 Order.
There is literally a heading on page two of this
letter for "Dawn Morin" and it states as follows: "We recently provided Dawn Morin with
her percentage share of the Trust reserve account as required by the terms of the prior settlement agreement between the Trust and
Dawn. The Court order dated May 6, 2009
that was entered in connection with this particular dispute mandated that Dawn was to
receive her percentage of the reserve account no
later than December 31, 2009." (Emphasis
added) A true and correct copy of this letter
is attached hereto as Exhibit "A" and incorporated herein by this reference.

4
Letter dated September 8, 2011, to Petitioner. On September 8, 2011, the undersigned's law firm sent a letter to Petitioner
that once again provided a recap relating to
Dawn Morin as follows: "As you will recall, at
the time of distribution of the Trust estate, a
reserve account balance was held to be used for
the payment of Trust expenses, including but
not limited to accounting fees and legal fees.
The Trust reserve account balance was also
held in order to assist with the formation of a
Tenants in Common agreement related to the
Manteca Property, the distribution of the Burson property, and the distribution of Dawn
Morin's share of the Trust reserve account as
mandated by the previously entered Court order dated May 6, 2009, among other things."
(Emphasis added) A true and correct copy of
this letter is attached hereto as Exhibit "B"
and incorporated herein by this reference.
Release dated September 30, 2011. On September 30," 2011, Petitioner signed a Release
of Liability of Trustee and Waiver of Accounting (the "Release") releasing Respondent from
44 . . . any and all actions, causes of action,
claims, demands, damages, costs, and expenses, including any liability to JOZLYN
THOMAS, known or unknown, existent or
non-existent, for or because of any matter or
thing done, omitted or suffered to be done by
JAMES SCOTT BLEVINS as Trustee of the
above mentioned trust." The Release was not
"boilerplate" or "routine" and included an entire detailed page of the various aspects of the
administration of the Trust, including the

5
2009 Order Petitioner claims to have only just
discovered in 2017. The following two paragraphs contained in the Release are directly
related to the instant action:
i. "We acknowledge having been provided with a
formal accounting for the period April 3, 2003
through December 31, 2008 and for the period
of January 1, 2009 through March 14, 2010.
We hereby waive any further accounting from
the Trustee."
11.

"We further acknowledge that JOZLYN
THOMAS' share of the current balance on
hand has been adjusted to 9.976855%, due to
the fact that the final share to beneficiary
DAWN MORIN has already been distributed
as mandated by prior Court order." (This
Dawn Morin order is the 2009 Order that is at
issue in this Appeal). A true and correct copy
of the Release is attached hereto as Exhibit
"C" and incorporated herein by this reference.
♦

ARGUMENT
1. PETITIONER'S ARGUMENT RESTS ENTIRELY WITH HER DISAGREEMENT WITH
THE 5TH DCA'S ANALYSIS AND INTERPRETATION OF CALIFORNIA CASE LAW, NOT
THE UNITED STATES CONSTITUTION.
As mentioned, Petitioner characterizes her Petition as one concerning the Fifth Amendment and Fourteenth Amendment to the United States Constitution.

6
However, Petitioner fails to argue how these two Constitutional Amendments apply to the facts of this case.
Instead, Petitioner complains about the 5th DCA's interpretation of California case law, specifically, County
of San Diego v. Gorham (2010) 186 Cal.App.4th 1215.
The Gorham case was properly interpreted by the 5th
DCA, but confusingly, this has nothing to do with the
"Question" presented by Petitioner in her Petition.
Since the issue was raised, I'll address it. Gorham
concluded that where a fraudulent return of service results in a complete failure of service of process on the
defendant whose rights were at stake, there is a fundamental lack of jurisdiction over that party and any
resulting order or judgment against him or her is void
and may be set aside at any time. Gorham at 12281229, 1234-1235. In reaching that conclusion, Gorham
acknowledged that where the invalidity of a judgment
does not appear on the face of the record, it may be attacked by a motion in the action in which the judgment
was entered, but such motion would ordinarily have to
be made under a statute providing relief within certain
time limits or a reasonable time. Id. at p. 1228. However, the opinion also recognized that even if relief is
no longer available under statutory provisions, a trial
court retains the power to vacate a judgment on equitable grounds where it resulted from extrinsic fraud or
mistake, or where it was established as a matter of law
to be void for lack of due process. Ibid. In that regard,
Gorham emphasized that a false return of summons
proves "both" extrinsic fraud and mistake and that the
judgment or order is void. Id. at 1229.

7
The 5th DCA correctly found that in the present
case, no such false or fraudulent return of service was
shown. Furthermore, although an exception to the
statutory time limits for moving to vacate a void judgment due to improper service of process has of course
been recognized in cases where there was extrinsic
fraud involved, it was still required in those cases that
such a motion be made with diligence or within a reasonable time. (See e.g., Munoz v. Lopez (1969) 275
Cal.App.2d 178, 181-182; Washko v. Stewart (1941) 44
Cal.App.2d 311, 317-318; Smith v. Jones (1917) 174
Cal. 513, 515-516). In any event, this was not a fraudulent return of service case, so the apparent ruling in
Gorham that no diligence would be required in such
unique cases may be distinguished. As such, it was not
an abuse of discretion for the trial court in the instant
action to require Petitioner to bring her motion to vacate the 2009 Order, premised on alleged extrinsic
fraud, within a reasonable time. (See Trackman v. Kenney, 187 Cal.App.4th 175 [a party "can show that extrinsic fraud or mistake exists, such as a falsified proof
of service, and such a motion may be made at any time,
provided the party acts with diligence upon learning of
the relevant facts"].
The 5th DCA concluded that diligence was not
shown in this case; that is, the motion to vacate filed
by Petitioner was not brought within a reasonable
time. Further, the Gorham case is distinguishable and,
in any event, does not establish an abuse of discretion
in this case or require a reversal of the trial court's denial of the motion to vacate. Ultimately, the 5th DCA

8
held that Petitioner failed to demonstrate that, under
all the circumstances (outlined in the Factual Background section above), the trial court abused its discretion when it denied her motion to vacate the 2009
Order.
♦

CONCLUSION
Respondent respectfully requests that this Court
deny Petitioner's Petition for Writ of Certiorari.
Respectfully submitted,
JAMES SCOTT BLEVINS
901 Opal Lane
Ripon, CA 95366
(209) 993-6095

App. 1
EXHIBIT A
GIANELLI & ASSOCIATES
A Professional Law Corporation
Business & Estate Planning Real Estate, Mediation &
Litigation
1014 16th Street
P.O. Box 3212
Modesto, California 95353
Ph: 209-521-6260
Fax: 209-521-5971
L. F. "Bud" Gianelli (1928-2009)
Michael L. Gianelli*
David L. Gianellil
Brett L. Dickerson
John B. Pavia
Anthony D. Johnston
Keric J. Cushing
Chad Bion Yates
David C. Johnston
Eric T. Nielsen
Emily A. Wirowek
Luis 0. Perez
*Certified Specialist, Probate, Estate Planning
and Trust Law. The State Bar of California
Board of Legal Specialization
1LLM Taxation
February 17, 2011
Boys & Girls Club
of Manteca
Attn: Charlie Halford
P.O. Box 1061
Manteca, CA 95336

James Scott Blevins
11277 Cleveland Avenue
Oakdale, CA 95361

App. 2
St. Vincent de Pauls
Bryan Blevins
Society
2091 Willow Lane
Attn: Al Degroot, President Lakewood, CO 80215
525 East North Street
Manteca, CA 95336
Brent Blevins
7887 Koftinow Court
Daniel Thomas and Mary Manteca, CA 95336
Thomas, as guardians of
the Estate of Jozlyn
Kelly Bergman
Thomas, a Minor
1172 Joseph Court
10 Belem Street
Ripon, CA 95366
Punta Gorda, FL 33983
Anthony L. Giles
Michael Giles, a Minor
5613 Lowell Street
do Attorney Dawn Spratley Everett WA. 98203
Lane Powell PC
1420 Fifth Avenue,
Suite 4100
Seattle, WA 98101-2338
Re: Estates of Charles and Bobette Giles Giles
Revocable Trust dated January 18, 2002
Client Code: GILBO-1
Dear Beneficiaries:
This letter is being sent to provide you with an update on the status of various matters related to the
Giles Revocable Trust (the "Trust"), of which you are
all beneficiaries.
Manteca Property
We previously circulated a Tenants In Common agreement related to the property located at 1299 Vanderbilt Circle, in Manteca California (the "Manteca

App. 3
Property"). Thank you for your combined effort in getting this signed and returned to me. As of last week,
we have now received all signatures on this particular
agreement and I have enclosed a fully executed copy of
the same for your files.
Now that the Tenants In Common agreement has been
put in place we will be distributing the Manteca Property out of the Trust to each of you individually in accordance with your percentage ownership as set forth
on page two of the agreement. Please note that upon
distribution of the Manteca Property, your rights and
responsibilities (with regard to the Manteca Property)
will be governed by the Tenants in Common Agreement.
Dawn Morin
We recently provided Dawn Morin with her percentage
share of the Trust reserve account as required by the
terms of the prior settlement agreement between the
Trust and Dawn. The Court order dated May 6, 2009
that was entered in connection with this particular dispute mandated that Dawn was to receive her percentage of the reserve account no later than December 31,
2009. However, there were a multitude of ongoing partnership issues, Trust issues, and transfers that took
place post-settlement of this dispute of which Dawn
(through her attorney Chris Ramey) was involved and
these issues delayed the Court ordered distribution to
Dawn.
Chris Ramey recognized the benefit of resolving the
foregoing issues amicably and as such, did not press

App. 4
the issue regarding Dawn's distribution until recently.
Specifically, now that Dawn has no interest in the remaining Trust property, except for the Court ordered
distribution of her percentage of the reserve account,
Mr. Ramey demanded that the Trustee comply with
the terms of the above referenced settlement agreement and distribute Dawn's share which we did as required by the Court order.
As information, the informal accounting of the reserve
account at the time of distribution to Dawn Morin (i.e.
January 1, 2011) showed a balance of $76,892.23 and
Dawn's 28.5242% of this balance was equal to
$21,932.89.
Burson Property
After the Manteca Property is distributed to each beneficiary, the remaining Trust assets will consist of the
balance of the reserve account and the real property
commonly referred to as the "Burson Property" consisting of approximately 5.76 acres in Valley Springs California.
The Trustee has been actively trying to sell the Burson
Property for months and notwithstanding a recent
price reduction to $99,500 it has sat on the market for
nearly 3 months without any interest being generated
at this lower price. The link to the listing for the Burson Property with Stark Realty can be found immediately below:
http://www.starkrealty.com/home_detail.php?pointer=
102216

App. 5
In view of the time and expense related to the ongoing
management of the Trust to simply have the Burson
Property listed for sale, coupled with the beneficiaries'
desire to receive their percentage share of the remainder of the reserve account, and the fact that the Burson. Property is not receiving any offers (even with the
reduced price), the Trustee has decided that it would
make the most sense to distribute out this last remaining asset to the individual beneficiaries, together with
your percentage of the reserve account. Accordingly, if
the Trust does not receive any offers to purchase the
Burson Property by March 1, 2011, we will move forward with distributing this asset to each of you along
with your percentage of the reserve account.
Thank you for your attention to this and please do not
hesitate to contact our office with any questions or concerns you might have.
Very truly yours,
/s/ Eric T. Nielsen
ERIC T. NIELSEN
ETN/lgm
Enclosures
cc: Daniel J. Gatto, CPA

App. 6
EXHIBIT B
GIANELLI & ASSOCIATES
A Professional Law Corporation
Business & Estate Planning Real Estate, Mediation &
Litigation
1014 16th Street
P.O. Box 3212
Modesto, California 95353
Ph: 209-521-6260
Fax: 209-521-5971
L. F. "Bud" Gianelli (1928-2009)
Michael L. Gianelli*
David L. Gianellil
John B. Pavia
Brett L. Dickerson
Keric J. Cushing
Chad Bion Yates
Eric T. Nielsen
Luis 0. Perez
*Certified Specialist, Probate, Estate Planning
and Trust Law. The State Bar of California
Board of Legal Specialization
'LLM Taxation
September 8, 2011
Boys & Girls Club
of Manteca
Attn: Charlie Halford
P.O. Box 1061
Manteca, CA 95336

Anthony L. Giles
5613 Lowell Street
Everett WA. 98203

App. 7
St. Vincent de Pauls
Bryan Blevins
2091 Willow Lane
Society
Attn: Al Degroot, President Lakewood, CO 80215
525 East North Street
Manteca, CA 95336
Brent Blevins
7887 Koftinow Court
Daniel Thomas and Mary Manteca, CA 95336
Thomas, as guardians of
Kelly Bergman
the Estate of Jozlyn
Thomas, a Minor
1172 Joseph Court
10 Belem Street
Ripon, CA 95366
Punta Gorda, FL 33983
William Blevins
Michael Giles, a Minor
337 Ruess Road
do Carla Little
Ripon, CA 95366
5613 Lowell Street
Everett, WA 98203
Charles W. Giles, Jr.
10216 10th Place SE
Lake Stevens, WA 98258 and
E-mail to charlesgiles31@yahoo.com
Re: Estates of Charles and Bobette Giles Giles
Revocable Trust dated January 18, 2002
Client Code: GILBO-1
Dear Beneficiaries:
This letter is being sent as a follow up to my correspondence dated April 13, 2011 regarding the Giles
Revocable Trust (the "Trust"), of which you are all beneficiaries. We have now received the final tax return for
the Trust and as such, the Trustee is now in a position

App. 8
to distribute the remaining assets of the Trust which
consist solely of the Trust Reserve Account.
As you will recall, at the time of distribution of the
Trust estate, a reserve account balance was held to be
used for the payment of Trust expenses, including but
not limited to accounting fees and legal fees. The Trust
reserve account balance was also held in order to assist
with the formation of a Tenants in Common agreement
related to the Manteca Property, the distribution of the
Burson property, and the distribution of Dawn Morin's
share of the Trust reserve account as mandated by the
previously entered Court order dated May 6, 2009,
among other things.
The balance on hand for distribution is $31,851. I have
enclosed a distribution schedule that indicates: (1) the
total Reserve Account balance (above); (2) your specific
percentage interest therein; and (3) the total amount
of your respective share of the Reserve Account balance.
With regard to distribution of your respective shares of
the Reserve Account, I am also enclosing a Waiver of
Accounting and Release of Liability of Trustee. Please
review the waiver and release, and sign where indicated. Please return the original document to me in the
envelope provided. Once all signed waivers are received, original checks will be immediately forwarded
directly to each of you.
Should you have any questions, please do not hesitate
to contact either Jalyn Winters or me.

App. 9
Very truly yours,
/s/ Eric T. Nielsen
ERIC T. NIELSEN
ETN/lgm
Enclosures
cc: James Scott Blevins

App. 10
Giles Revocable Trust
Distribution Schedule — Reserve
Date: August 30, 2011
Assets on Hand

Bank of Stockton
Interest Checking
Account
Assets on Hand

Bank of Stockton
Interest Checking
Account

Balance/Value

Boys & Girls Club St. Vincent de
of Manteca
Pauls Society
0.03765485
0.03765485

prior allocation
allocation excluding
Dawn
0.05268193

$ 31,851.00

Dawn

Jozlyn

Charles

Anthony

0.285242

0.0713104

0.05268193

0.00000000

0.09976855

0.09976855 0.09976855

$

$ 3,177.73

$ 3,177.73

$ 3,177.73

Balance/Value
Michael
prior allocation
0.0713104
allocation excluding
Dawn
0.09976855

Scott
0.0713104

Bill
0.0713104

Bryan
0.0713104

Brent
Kelly
0.0713104
0.0713104

0.09911239

0.09911239

0.09911239

0.09911239 0.09911239

$ 31,851.00

$ 3,156.83

$ 3,156.83

$ 3,156.83

$ 3,156.83

$ 1,677.97

$ 3,177.73

0.0713104

0.0713104

$ 3,177.73

$ 3,156.83

App. 11
GILES REVOCABLE TRUST
dated January 18, 2002
RELEASE OF LIABILITY OF TRUSTEE
AND WAIVER OF ACCOUNTING
We, DANIEL THOMAS and MARY THOMAS, as
Guardians of the Estate of JOZLYN THOMAS, a Minor, acknowledge that JOZLYN THOMAS is one of the
beneficiaries of the GILES REVOCABLE TRUST
dated January 18, 2002 (the "Trust").
We understand that we are entitled to a full and
complete accounting of all assets, liabilities, receipts
and expenses of the Trust. We acknowledge having
been provided with a formal accounting for the period
April 3, 2003 through December 31, 2008 and for the
period of January 1, 2009 through March 14, 2010. We
hereby waive any further accounting from the Trustee.
We acknowledge that the Trust Estate consists of
an interest checking account held at Bank of Stockton
with a balance on hand for distribution of $31,851.00,
and that such account is the sole remaining asset of
the Trust Estate.
We acknowledge that JOZLYN THOMAS is entitled to 7.13104% of the net Trust Estate. We further
acknowledge that JOZLYN THOMAS' share of the current balance on hand has been adjusted to 9.976855%,
due to the fact that the final share to beneficiary
DAWN MORIN has already been distributed as mandated by prior Court order. Therefore, we acknowledge
that JOZLYN THOMAS is entitled to final distribution

App. 12
of the sum of $3,177.73 (the "Distribution") at this
time.
Except for payment of the Distribution and upon
receipt of the Distribution, we hereby release JAMES
SCOTT BLEVINS, as Trustee of the GILES REVOCABLE TRUST dated January 18, 2002, from any and all
actions, causes of action, claims, demands, damages,
costs, and expenses, including any liability to JOZLYN
THOMAS, known or unknown, existent or non-existent, for or because of any matter or thing done, omitted
or suffered to be done by JAMES SCOTT BLEVINS as
Trustee of the above mentioned trust.
The undersigned waives the provisions of Section
1542 of the California Civil Code, which provides that:
"Section 1542. A general release does not extend to claims which the creditor does not
know or suspect to exist in his or her favor at
the time of executing the release, which if
known by him or her must have materially affected his or her settlement with the debtor."
The undersigned understands and acknowledges the
significance and consequence of this specific waiver of
Section 1542 of the California Civil Code.

App. 13
Dated:
DANIEL THOMAS, as Guardian of
the Estate of JOZLYN THOMAS, a
Minor
MARY THOMAS, as Guardian of
the Estate of JOZLYN THOMAS, a
Minor

App. 14
EXHIBIT C
GILES REVOCABLE TRUST
dated January 18, 2002
RELEASE OF LIABILITY OF TRUSTEE
AND WAIVER OF ACCOUNTING
We, DANIEL THOMAS and MARY THOMAS, as
Guardians of the Estate of JOZLYN THOMAS, a Minor, acknowledge that JOZLYN THOMAS is one of the
beneficiaries of the GILES REVOCABLE TRUST
dated January 18, 2002 (the "Trust").
We understand that we are entitled to a full and
complete accounting of all assets, liabilities, receipts
and expenses of the Trust. We acknowledge having
been provided with a formal accounting for the period
April 3, 2003 through December 31, 2008 and for the
period of January 1, 2009 through March 14, 2010. We
hereby waive any further accounting from the Trustee.
We acknowledge that the Trust Estate consists of
an interest checking account held at Bank of Stockton
with a balance on hand for distribution of $31,851.00,
and that such account is the sole remaining asset of
the Trust Estate.
We acknowledge that JOZLYN THOMAS is entitled to 7.13104% of the net Trust Estate. We further
acknowledge that JOZLYN THOMAS' share of the current balance on hand has been adjusted to 9.976855%,
due to the fact that the final share to beneficiary
DAWN MORIN has already been distributed as mandated by prior Court order. Therefore, we acknowledge

App. 15
that JOZLYN THOMAS is entitled to final distribution
of the sum of $3,177.73 (the "Distribution") at this
time.
Except for payment of the Distribution and upon
receipt of the Distribution, we hereby release JAMES
SCOTT BLEVINS, as Trustee of the GILES REVOCABLE TRUST dated January 18, 2002, from any and all
actions, causes of action, claims, demands, damages,
costs, and expenses, including any liability to JOZLYN
THOMAS, known or unknown, existent or non-existent, for or because of any matter or thing done, omitted
or suffered to be done by JAMES SCOTT BLEVINS as
Trustee of the above mentioned trust.
The undersigned waives the provisions of Section
1542 of the California Civil Code, which provides that:
"Section 1542. A general release does not extend to claims which the creditor does not
know or suspect to exist in his or her favor at
the time of executing the release, which if
known by him or her must have materially affected his or her settlement with the debtor."
The undersigned understands and acknowledges the
significance and consequence of this specific waiver of
Section 1542 of the California Civil Code.

App. 16
Dated: September 30, 2011
/s/ Daniel Thomas
DANIEL THOMAS, as Guardian of
the Estate of JOZLYN THOMAS,
a Minor
/s/ Mary Thomas
MARY THOMAS, as Guardian of
the Estate of JOZLYN THOMAS,
a Minor

